                            Closeout for M01010002

   On J a n 25, 2001, a Program Officer (P0)l told u s of a n allegation a potential
reviewer (the scientist)2 had made in connection with a n NSF proposal.3 The
scientist said he could not objectively review the proposal because he knew the
PI4 to be a plagiarist. When he referred the allegation to us, the PO said he had
learned5 that we had had a previous case against the PI.6
   Our records indicated the PI was the subject of a previous case that was
closed a t the inquiry stage without a finding of misconduct in science. The
scientist was involved in that case. Regarding his recent allegation, the
scientist told u s he was referring collectively to various incidents he knew
about the PI and not to a particular incident that involved NSF. He said he had
not intended to make an allegation, but was simply telling the PO why he did
not want to review the PI'S proposal.
   This inquiry is closed and no further action will be taken on this case.

cc: Investigation, IG




    (footnote redacted).
   2(footnote redacted).
  3 (footnote redacted).
    (footnote redacted).
  5 (footnote redacted).
  6 M 9 1020007




                                     Page 1 of 1
